TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                     An Independent Risk Assessment of
                Facility Physical Security Was Not Performed
                             in Compliance With
                           Contract Requirements



                                           July 25, 2012

                              Reference Number: 2012-10-075




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                    HIGHLIGHTS


AN INDEPENDENT RISK ASSESSMENT                          Assessment contract in compliance with relevant
OF FACILITY PHYSICAL SECURITY WAS                       acquisition regulations and guidance. IRS
NOT PERFORMED IN COMPLIANCE                             management and Physical Security and
WITH CONTRACT REQUIREMENTS                              Emergency Preparedness program office
                                                        employees, without the knowledge of the
                                                        contracting officer, instructed the contractor to
Highlights                                              perform services that were lesser in scope than
                                                        required by the original contract. In addition, the
                                                        contractor indicated that the Physical Security
Final Report issued on July 25, 2012                    and Emergency Preparedness program office
                                                        did not provide the contractor access to all of the
Highlights of Reference Number: 2012-10-075             information necessary to complete a report
to the Internal Revenue Service Deputy                  outlining the IRS’s overall security posture. As a
Commissioner for Operations Support.                    result of these actions, an independent risk
IMPACT ON TAXPAYERS                                     assessment of facility physical security was not
                                                        performed in compliance with contract
The IRS has an obligation to protect the Federal        requirements. In fact, the contractor declined to
Government’s tax administration system, which           provide a validation of the acceptability of the
includes its 100,000 employees stationed at             IRS’s security posture.
more than 700 facilities, taxpayer information,
and the taxpayers who visit the IRS throughout          WHAT TIGTA RECOMMENDED
the United States. Our review identified                TIGTA recommended that the Deputy
significant deficiencies in the administration of       Commissioner for Operations Support
an IRS physical security risk assessment                1) reemphasize to IRS management officials,
contract. As a result, the contractor was unable        program office employees, and contracting
to conduct an in-depth, independent assessment          officer’s technical representatives that
regarding the security posture of IRS facilities,       contracting officers must be promptly notified of
as required by the contract. When contracts are         any changes to contract requirements, and
not properly administered, the IRS may not              2) ensure contracting officer’s technical
receive the desired contract outcomes and the           representatives perform their specific
best return on the taxpayers' dollar.                   responsibilities including: advising the
WHY TIGTA DID THE AUDIT                                 contracting officer when changes in the work
                                                        occur, reviewing contractor vouchers and
This audit was initiated because effective risk         invoices to ensure they are accurate,
assessments are the primary method used to              determining whether services are delivered in
identify security weaknesses and allow steps to         conformance with the requirements of the
be taken to improve overall security at IRS             contract, and following the contract’s quality
facilities. The objective of this review was to         assurance plan.
determine whether the IRS administered the
Physical Security Risk Assessment contract in           In their response, IRS management agreed with
compliance with acquisition regulations and             our recommendations and plans to issue a
guidance to ensure the IRS received the                 memorandum reemphasizing that contracting
contract deliverables in accordance with the            officers must be promptly notified of any
terms and conditions of the contract.                   changes to contract requirements so required
                                                        modifications can be timely executed. Also, the
WHAT TIGTA FOUND                                        IRS plans to issue a memorandum to
                                                        contracting officer’s technical representatives
TIGTA determined that the IRS did not receive           outlining their roles and responsibilities.
an in-depth, independent assessment regarding
the security posture of its facilities as required by
the contract. In addition, the IRS did not
administer the Physical Security Risk
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            July 25, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – An Independent Risk Assessment of Facility
                             Physical Security Was Not Performed in Compliance With Contract
                             Requirements (Audit # 201110025)

 This report presents the results of our review on the Independent Risk Assessment of Facility
 Physical Security. The overall objective of this review was to determine whether the Internal
 Revenue Service (IRS) administered the Physical Security Risk Assessment contract1 in
 compliance with applicable Federal, Department of the Treasury, and IRS acquisition regulations
 and guidance to ensure the IRS received the contract deliverables in accordance with the terms
 and conditions of the contract. This review is included in our Fiscal Year 2012 Annual Audit
 Plan and addresses the major management challenge of Fraudulent Claims and Improper
 Payments.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
 Exempt Organizations), at (202) 622-8500.




 1
     TIRNO-10-C-00041.
                      An Independent Risk Assessment of Facility Physical Security
                      Was Not Performed in Compliance With Contract Requirements




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          An Independent Assessment of the Adequacy of Facility Security
          Was Not Performed in Compliance With the Contract ................................ Page 4
          Significant Deficiencies Were Identified in the Administration
          of the Physical Security Risk Assessment Contract ..................................... Page 9
                    Recommendation 1:........................................................ Page 14

                    Recommendation 2:........................................................ Page 15


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measure ................................................................ Page 21
          Appendix V – Management’s Response to the Draft Report ....................... Page 23
       An Independent Risk Assessment of Facility Physical Security
       Was Not Performed in Compliance With Contract Requirements




                      Abbreviations

COTR            Contracting Officer’s Technical Representative
FAR             Federal Acquisition Regulation
IRS             Internal Revenue Service
PSEP            Physical Security and Emergency Preparedness
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements




                                             Background

The Internal Revenue Service (IRS) has an obligation to protect the Federal Government’s
tax administration system, which includes its 100,000 employees stationed at more than
700 facilities, taxpayer information, and the taxpayers who visit the IRS throughout the
United States. In 1995, the President issued Executive Order 12977, Interagency Security
Committee,1 which mandated that Federal agencies assess the vulnerability of Federal facilities.
In compliance with Executive Order 12977, the Department of the Treasury requires that risk
assessments be conducted at IRS facilities in order to assess security risks from internal or
external threats, and to identify the need for security counter measures.2 Within the IRS, these
facility risk assessments are the responsibility of the Office of Physical Security and Emergency
Preparedness (PSEP), in the Agency-Wide Shared Services.
On February 18, 2010, a single-engine airplane was intentionally flown into an IRS building in
Austin, Texas, killing the pilot and an IRS employee, and injuring 13 others (hereafter referred to
as the Austin incident). In response to the Austin incident, the IRS contracted with a consulting
firm to conduct a limited study of the IRS’s security posture and to identify gaps in IRS security
policy, program administration, management, or practices. The consulting firm’s April 2010
report included a number of areas for improvements. These areas included:
        Ensuring the staffing of risk assessments and compliance reviews promote independence.
         The consultant recommended that the IRS develop an approach for security specialists to
         assess facilities not within their purview and/or consider developing an independent
         assessment or review capability, including leveraging external resources.
        Establishing a centralized process to monitor and track employee training requirements
         and security-related certifications. The consultant recommended that the IRS maintain a
         tracking process of training and certification data and prioritize staff training nationwide.
        Ensuring risk assessments are fully compliant with the latest Federal facility security
         standards.3 The consultant recommended that the IRS ensure that the PSEP automated
         risk assessment tool includes the most recent Federal facility security standards.



1
  60 C.F.R. 54411 (1995).
2
  Counter measures include, but are not limited to, security guards, surveillance cameras, and locked entryways.
3
  The Interagency Security Committee established policies for security in and protection of Federal facilities. The
Interagency Security Committee issued interim standards, Physical Security Criteria for Federal Facilities - An
Interagency Security Committee Standard, dated April 12, 2010, that established a baseline set of physical security
measures to be applied to all Federal facilities based on their designated facility security level.
                                                                                                             Page 1
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



On May 20, 2010, IRS management issued an announcement to update IRS employees on safety
and security initiatives underway as a result of the Austin incident. IRS management advised
that they were launching an in-depth security review of IRS facilities across the country to
determine how the agency might improve its current security posture. The announcement
indicated that the IRS would be looking at a host of issues to see what appropriate steps could be
taken to improve overall security.
In support of its goal of improving facility security, the IRS initiated the Commissioner’s
Security Readiness Project in March 2010. To obtain an independent perspective on IRS
security issues, the IRS appointed an executive from the Office of Procurement to lead this
effort. This project team developed an action plan to identify steps that could be taken to
improve overall security following the Austin incident. An important part of the action plan
included conducting in-depth security reviews (risk assessments) of all IRS facilities by
December 31, 2010. The IRS concluded that it did not have the in-house capacity to perform the
in-depth risk assessments within the six-month time period and obtained the services of a
contractor on June 15, 2010.
The contract4 required the contractor to:
        Conduct risk assessments at 669 IRS facilities5 nationwide and analyze existing security
         measures and practices in each facility.
        Provide findings and recommendations on any deficiencies noted, including cost
         estimates for corrective actions.
        Prepare a report outlining the IRS’s overall security posture.
A contract modification was executed on December 30, 2010, revising key provisions in the
original contract to include that the contractor develop a report that summarizes recurring
findings and systemic failures and make recommendations for corrective actions. The contractor
was also asked to evaluate the overall PSEP risk assessment process and provide an opinion on
the IRS’s overall compliance with Federal facility security standards based on the contractor’s
personal observations.

IRS contract administration roles and responsibilities
When the IRS awards a contract, the acquisition team is responsible for the various aspects of the
contract administration. This team consists of program managers, contracting officers, and

4
  Physical Security Emergency Preparedness Risk Assessment contract (TIRNO-10-C-00041).
5
  While the IRS has more than 700 facilities, the IRS indicated that facilities were excluded from the risk assessment
review based on whether the facility was under realignment or underwent major changes before March 11, 2010.
The contract further noted that the total number and actual site locations were subject to change due to planned
closures and new facility openings. Of the 669 sites initially identified in the contract, the IRS indicated that
631 risk assessments were performed.
                                                                                                              Page 2
                An Independent Risk Assessment of Facility Physical Security
                Was Not Performed in Compliance With Contract Requirements



contracting officer’s technical representatives (COTR). The responsibilities of the acquisition
team are as follows:
      Program Manager – responsible for providing the business justification, certifying that
       there is a legitimate need for the goods or services requested under the contract, and
       confirming that sufficient funding is available.
      Contracting Officer – responsible for safeguarding the Government’s interests, ensuring
       performance of all necessary actions for effective contract administration, and ensuring
       contractors are complying with contract terms. The contracting officer provides expertise
       on the transactional aspects of the contracting process, such as entering into,
       administering, or terminating contracts. The contracting officer is the only person
       authorized to issue a contract modification or task order change.
      COTR – responsible for providing quality assurance to confirm that the contractor has
       delivered goods and rendered services that conform to contract requirements.
This review was performed at the Agency-Wide Shared Services National Headquarters in
Washington, D.C.; the Office of Procurement in Oxon Hill, Maryland; the Agency-Wide Shared
Services PSEP offices in Memphis, Tennessee, and Ogden, Utah; and the Department of
Homeland Security, Office of Procurement, in Washington, D.C., during the period
September 2011 through March 2012. We also visited the contractor’s office in
Fayetteville, Georgia. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                            Page 3
                      An Independent Risk Assessment of Facility Physical Security
                      Was Not Performed in Compliance With Contract Requirements




                                          Results of Review

Our review determined that the contractor did not perform an in-depth, independent assessment
regarding the security posture of the IRS’s 669 facilities as required by the contract. In addition,
the IRS did not administer the Physical Security
Risk Assessment contract in compliance with
acquisition regulations and guidance. IRS                    Independent, in-depth security
management and PSEP program office employees                reviews   were not performed at all
directed the contractor to perform services that          IRS  facilities in compliance with the
                                                              requirements of the Physical
were lesser in scope than required by the original         Security Emergency Preparedness
contract. This direction included that the                     Risk Assessment contract.
contractor: assist PSEP employees with
conducting the risk assessments rather than lead
the risk assessments, provide observations to PSEP personnel who prepared the facility risk
assessment reports, and attend only those facility site visits where PSEP personnel requested
support. In addition, the contractor indicated that the PSEP program office did not provide the
contractor access to all of the information necessary to complete the report outlining the overall
IRS security posture.
As a result of the IRS’s actions, the IRS did not receive contract deliverables in accordance with
the contract’s requirements, and the contractor declined to provide a validation of the
acceptability of the IRS’s security posture. The noncompliance of contract deliverables could
potentially impact the IRS’s ability to make informed decisions regarding its physical security
and the need for additional security enhancements. When contracts are not properly
administered, the IRS may not receive the desired contract outcomes and the best return on the
taxpayers’ dollar.

An Independent Assessment of the Adequacy of Facility Security Was
Not Performed in Compliance With the Contract
Our review determined that the contractor did not conduct independent facility risk assessments
in compliance with contract requirements. Instead, the contractor indicated that PSEP employees
conducted the risk assessments and were often the same PSEP employees assigned the primary
security duties for the facility under review. Analysis of contractor invoices and IRS
documentation found that the contractor was not involved in the performance of a risk
assessment at 327 (52 percent) of 631 facilities.6 Even at the IRS sites where the contractor was


6
    Of the 669 sites initially identified in the contract, the IRS indicated that 631 risk assessments were performed.
                                                                                                                  Page 4
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



asked to participate, the amount of assistance provided by the contractor varied at each location
based on what the local PSEP representative requested.
In addition, the contractor indicated that the IRS did not provide access to the official risk
assessment reports for the locations where the contractor’s support was provided. Therefore, the
contractor did not have assurance that all significant observations were included in the risk
assessment reports for the facilities at which the contractor provided support. Figure 1 provides
a summary of the key contract requirements and modifications and whether or not they were met.
              Figure 1: Contractor Compliance With Contract Requirements
                       Contractor Requirements                                         Requirement Met
Conduct risk assessments at 669 IRS facilities nationwide and analyze existing   No – PSEP staff conducted the risk
security measures and practices in each facility by December 31, 2010.           assessments themselves and
                                                                                 requested the contractor to provide
                                                                                 assistance at only 304 sites.
     Modification: Provide a minimum of one qualified contract security
     specialist when requested to assist in the completion of site risk                          Yes
     assessments at up to 669 IRS facilities by December 31, 2010.
Provide risk assessment reports which include findings and recommendations       No – PSEP staff prepared the risk
on any deficiencies noted during the risk assessments.                           assessment reports themselves,
                                                                                 with the contractor providing
                                                                                 observations only when requested.
    Modification: Provide individual findings and recommendations, verbal
    or written, relating to the individual risk assessments for each facility                    Yes
    where assistance was provided as requested.
Prepare a report outlining the overall IRS security posture.                     No – The contractor did not
                                                                                 provide support at 327 (52 percent)
                                                                                 of the 631sites where risk
                                                                                 assessments were completed. For
                                                                                 the sites where only PSEP
                                                                                 personnel conducted the risk
                                                                                 assessment, the IRS provided
                                                                                 copies of risk assessment reports
                                                                                 for the contractor’s review. Since
                                                                                 the contractor was not physically
                                                                                 present for these risk assessments
                                                                                 and had concerns about the
                                                                                 adequacy of the IRS risk
                                                                                 assessment process, the contractor
                                                                                 elected not to place reliance on the
                                                                                 results. Consequently, the
                                                                                 contractor did not provide
                                                                                 validation of the acceptability of
                                                                                 the IRS’s overall security posture.




                                                                                                            Page 5
                    An Independent Risk Assessment of Facility Physical Security
                    Was Not Performed in Compliance With Contract Requirements



                       Contractor Requirements                                          Requirement Met
    Modification: Provide an executive summary describing the IRS’s            No – The contractor indicated that
    overall compliance with Federal facility security standards based on sites the IRS did not provide the
    visited by the contractor.                                                 contractor access to the official
                                                                               risk assessment reports for the
                                                                               locations where the contractor’s
                                                                               support was provided. Therefore,
                                                                               the contractor did not have
                                                                               assurance that all significant
                                                                               observations were included in the
                                                                               official risk assessment reports.
In addition to those requirements previously listed, the following reporting requirements were added during
the modification of the contract’s requirements:
Provide an evaluation of the PSEP overall risk assessment process and                           Yes
recommendations for process improvements based on actual sites visited.
Provide a report that summarizes recurring findings, identifies systematic     No – The contractor did not
failures, and makes recommended corrective actions.                            provide support for all
                                                                               631 completed risk assessments
                                                                               and indicated that it did not have
                                                                               access to the official reports for the
                                                                               risk assessments where support
                                                                               was provided.
Provide recommendations on the future use of contractor support for the risk                  Yes
assessment process to include lessons learned during the contract’s
performance period.
Provide draft report to the COTR.7                                                            Yes
Provide final report to the COTR.                                                             Yes
Source: The Treasury Inspector General for Tax Administration’s review of the contract Performance Work
Statement issued June 15, 2010, and modified December 30, 2010.

Beginning as early as June 18, 2010, IRS management and PSEP program office employees
instructed the contractor to perform services that were lesser in scope than stated in the original
contract. The contractor is responsible for notifying the contracting officer of any changes in
work scope. We identified no written notifications to the contracting officer prior to the
contractor providing the reduced services. However, the contractor did provide IRS management
and an Office of Procurement official with both written and verbal notifications of a significant
change in work scope. For example, in a written notification, dated July 12, 2010, the contractor
stated:


7
  The Performance Work Statement modified on December 30, 2010, stated that the contractor was to submit a draft
and final report; however, the original contract Performance Work Statement did not indicate the specific
information to be included in these reports. The contractor’s draft and final reports included: an evaluation of the
PSEP overall risk assessment process and recommendations for process improvements, recommendations on future
use of contractor support for the risk assessment process, and lessons learned during the contract’s performance
period.
                                                                                                            Page 6
                      An Independent Risk Assessment of Facility Physical Security
                      Was Not Performed in Compliance With Contract Requirements



           In light of the meeting today and the significant change in the scope of work, I
           think we should meet tomorrow to go over all of the changes to ensure we are all
           clear on the work to be performed and the expected results/deliverables.
The contractor advised us that IRS management provided verbal assurances that a contract
modification would be put in place. However, this modification was not executed until
December 30, 2010, after the completion of the facility risk assessments. Additionally, our
review of the contract file identified a December 17, 2010, memorandum written by the
contracting officer indicating that the change in the contractor’s role and work scope had been
informally put into effect at the request of the PSEP program office. The memorandum further
states that the basis for the change in the contractor’s role and work scope was that the IRS did
not want the contractor to have knowledge of any security flaws that might potentially exist at
IRS facilities. The memorandum also notes that the PSEP program office had not made the
contracting officer aware of the change it had directed the contractor to make. In fact, based on
the memorandum, the matter did not come to the contracting officer’s attention until she learned
of it during an interview with Treasury Inspector General for Tax Administration auditors in
November 2010. Below are excerpts from the December 17, 2010, memorandum:
           It should be noted that the contracting officer and the COTR believed the
           contractor to be performing in accordance with the requirements in the contract.
           When it was brought to our attention that this might not necessarily be the case
           (that, in fact, the contractor was performing some risk assessments reviews
           behind the PSEP program office personnel, and not independently conducting the
           security assessments themselves), this was discussed with the IRS program
           manager(s). However, inasmuch as this ‘technical direction’ was done without
           the knowledge or concurrence of either the COTR or the contracting officer, the
           contracting officer has since attempted to ensure that: (1) the contract now
           reflects the work actually performed, and (2) the contractor is paid only for work
           performed.
           The contracting officer and the COTR have been in communication with each
           other and have realized that changes to the contract requirements were made by
           individuals in positions well above themselves without including the contracting
           officer and COTR in these decisions. The contracting officer questioned how this
           could have happened and was told by the COTR that the PSEP Office didn’t want
           an individual or contractor to be privy to all of the possible flaws within the
           various IRS locations.
The Federal Acquisition Regulation (FAR)8 requires, when possible, that a contract modification
be executed before the work scope changes are implemented. This protects the Government’s


8
    48 C.F.R. ch. 1 (2009).
                                                                                                Page 7
                 An Independent Risk Assessment of Facility Physical Security
                 Was Not Performed in Compliance With Contract Requirements



interest relating to the overall cost of the contract and allows the contracting officer to direct the
performance of the contract work.
IRS management informed us that numerous discussions were held after the physical security
risk assessment contract was awarded regarding a change in the contractor’s role and a reduction
in work scope. However, the IRS advised us that the content of the discussions and key
decisions made at these meetings were not documented. Our discussions with IRS management
found that the IRS did not consider taking any alternative actions to protect the Government’s
interests, such as terminating the contract once they decided not to have the contractor
independently conduct the facility risk assessments. The IRS indicated that while the PSEP
security specialists were capable of conducting the risk assessments without contractor support,
the IRS wanted the contractor’s involvement to add additional perspective and credibility to its
assessments. This explanation contradicted the justification in the contract acquisition plan
which indicated that the IRS did not have the in-house capacity to perform the risk assessments
within the six-month time period required for completion.

The contractor’s final report raises concerns regarding PSEP personnel’s
performance of risk assessments
The contractor’s final report deliverable was comprised of lessons learned from the current PSEP
risk assessment process, and a number of issues were identified for IRS consideration. One
concern the contractor noted involved the independence of PSEP employees leading the risk
assessments. Often the PSEP employees conducting the risk assessments were the same
employees assigned the primary security duties for the facility under review. The contractor
suggested that the IRS select risk assessment team personnel from a different geographical area
if using IRS personnel to conduct future risk assessments. The use of personnel from another
Federal agency or a private contractor was also recommended as another alternative to the
current practice.
Other significant concerns the contractor raised in the report included:
      PSEP employees lacked training on the new Federal physical security standards and some
       lacked experience in the performance of facility risk assessments.
      The software used to guide and document the risk assessment process did not incorporate
       the new Federal facility security standards, and the cost estimator portion was outdated
       and inaccurate.
It should be noted that the contractor raised additional issues of concerns in its draft version of
the report. However, the contractor was directed to remove those statements because the IRS did
not want these issues presented in the final report. The IRS also requested specific examples
from the contractor in order to respond to the concerns raised, including the concern that not all
identified deficiencies were documented by PSEP personnel in the resulting reports, either out of


                                                                                                Page 8
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



political expediency or due to concerns that the findings would lead to additional workload for
security personnel.
The IRS’s rebuttal to the concerns raised in the final report indicated that it would consider the
suggestion to select risk assessment team personnel from a different geographical area in future
assessments. However, the IRS indicated that physical security specialists are required to attend
training. The IRS also indicated that it believed the software was up-to-date with new Federal
facility security standards, and the cost estimator in the software uses an industry-accepted
standard.
Based on the concerns raised during this review relating to potential physical security
deficiencies that the IRS identified, but that may not have documented in the risk assessments,
we are initiating a separate review to assess the adequacy of the physical security assessments
conducted at IRS facilities.9

Significant Deficiencies Were Identified in the Administration of the
Physical Security Risk Assessment Contract
Our review determined that the IRS did not administer the Physical Security Risk Assessment
contract in accordance with relevant FAR provisions, Department of the Treasury regulations,
and IRS policies and procedures. Figure 2 provides a summary of our evaluation of the key
contract administration requirements relevant to the contract and whether the requirement was
met.
                Figure 2: Key IRS Contract Administration Responsibilities
                                 Relevant to the Contract
                                                                                             Responsibility
                         Contract Administration Requirements                                    Met

       Appoint a COTR by issuing a signed Letter of Appointment10 tailored to meet                  Yes
       the needs of each contract.
       Ensure that all security requirements of the contractor are met, including                   Yes
       obtaining security background investigations for all required contractor
       personnel.
       Monitor the contractor’s performance to assure that the contractor has delivered             No
       supplies and services that conform to contract requirements.
       Review contractor invoices and supporting documentation to ensure labor rates                No
       are consistent with the terms and conditions of the contract, and whether billed
       travel costs are supported by appropriate documentation.


9
  Physical Security and Emergency Preparedness Risk Assessment Process (Audit # 201210007).
10
   A Letter of Appointment is issued by the contracting officer detailing the roles and responsibilities of the COTR
in regard to the contract.
                                                                                                              Page 9
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



                                                                                        Responsibility
                         Contract Administration Requirements                               Met

        Review hours worked by contractor employees and verify contractor                         No
        qualifications and experience levels for individual contractor employees.
        Ensure that employees (other than the contracting officer) are prohibited from            No
        providing technical direction to the contractor that may change the terms and
        conditions of the contract.
        Ensure that changes in the delivery of goods or services and the resulting effects        No
        on the delivery schedule are formally made by written modification issued by the
        contracting officer before the contractor proceeds with the change.
       Source: The Treasury Inspector General for Tax Administration’s review of FAR provisions, Department
       of the Treasury regulations, IRS Acquisition guidance, and the COTR Letter of Appointment.

In addition, we found that PSEP program office employees acted beyond their authority when
directing the contractor to perform a variety of tasks at the 304 facilities the contractor visited.
These tasks were in direct contradiction to the terms and conditions of the contract. For
example:
        The PSEP Risk Assessment Project Manager instructed the contractor to only assist or
         support the PSEP physical security specialists, rather than lead the assessments.
        The PSEP Risk Assessment Project Manager instructed the contractor to attend site visits
         only at selected facilities. In contrast, the contract required the contractor to conduct risk
         assessments at 669 IRS facilities, subject to change due to planned office closures and
         new openings.
The FAR states that in the event the contractor makes any changes at the direction of any person
other than the contracting officer, the change will be considered to have been made without
authority. Our review identified that the role and scope of work performed by the contractor was
reduced based on the verbal direction of IRS management. This change was not at the direction
of the contracting officer, as required.

The contract was not timely modified
Although IRS management changed the role and responsibilities of the contractor by directing a
reduction in services shortly after the contract was awarded, the contract was not modified until
six months after the contractor began. Specifically, the contract modification was not executed
until after all of the risk assessments of IRS facilities were performed.
A contracting officer relies upon the COTR and the contractor to advise him or her of any
change in the contract requirements (scope of work). One of the duties included in the COTR
Letter of Appointment is to assure that changes in work or services are included in the contract
through a written modification issued by the contracting officer. This modification should be
prepared before the contractor implements the changes. Figure 3 shows a timeline of significant

                                                                                                      Page 10
                    An Independent Risk Assessment of Facility Physical Security
                    Was Not Performed in Compliance With Contract Requirements



events based on our review of the contract file, e-mails, and discussions with the IRS and the
contractor. The timeline provides examples of the numerous opportunities PSEP personnel had
to inform the contracting officer, as required, of the changes that had been informally
implemented.
                  Figure 3: Timeline of Events During Contract Performance

         Date                                                   Event
 June 15, 2010          Contract awarded.
                        The Commissioner’s Security Readiness Project leadership advised the PSEP Risk
                        Assessment Project Manager of a change in the role of the contractor.
 June 18, 2010
                        The COTR advised the PSEP Risk Assessment Project Manager of delays in the
                        contractor security clearance process.
                        Due to the delays in completing the contractor background investigations, the PSEP
                        Risk Assessment Project Manager advised PSEP management that PSEP staff would
 June 22, 2010          begin to conduct the planned risk assessments and indicated that contractor employees
                        would take over performance of the risk assessments once they received their security
                        clearance.
                        The COTR was included in distribution of an e-mail that discussed the contractor work
 June 25, 2010          scope change. The contracting officer indicated that the changes to the scope of work
                        were not communicated at this time.
 July 1, 2010           The first two contractor employees received their security clearance.
                        The contractor attempts to conduct the first three risk assessments as scheduled.
                        However, IRS employees advised the contractor that they would not be given access to
 July 7-9, 2010
                        the facilities without IRS escorts. In one instance, the PSEP program employee advised
                        the contractor that the IRS had already completed the risk assessment.
                        During another risk assessment, the contractor indicated that a PSEP program employee
                        advised the contractor that the IRS had already completed the risk assessment.
 July 12, 2010          The contractor notifies IRS management of the direction he received on the change in
                        work scope, including an executive from the Office of Procurement. The contracting
                        officer indicated that the changes to the scope of work were not communicated to her at
                        this time.
                        Commissioner’s Security Readiness Project personnel advised the contractor that PSEP
 July 14, 2010          program employees would be leading the risk assessments and that the contractor
                        would be providing assistance as needed.
                        The contract specialist (assists the contracting officer) contacted the IRS Project
                        Manager for a status update on the contract performance. The PSEP Risk Assessment
 August 4, 2010
                        Project Manager’s e-mail did not advise the contract specialist of the changes to the
                        scope of work.




                                                                                                        Page 11
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements




         Date                                                    Event
                         The COTR advised the contract specialist that the funds needed for the contract had
                         been reduced based on the progress of risk assessments completed. The contracting
  September 8-16, 2010 officer signed contract modification number one to remove approximately $800,000 for
                         labor hours no longer needed over the term of the contract.11 The contracting officer
                         indicated that the changes to the scope of work were not communicated at this time.
                         The contracting officer was advised of the risk assessment contract’s change in
  November 1, 2010       contractor role and work scope during an interview with the Treasury Inspector General
                         for Tax Administration.
                         Contract modification number two was issued to change the responsible contracting
                         officer. The contract specialist was assigned as the responsible contracting officer. The
  November 5, 2010       contracting officer indicated that the contract specialist had received the contracting
                         officer’s warrant12 and could now be assigned to serve as the responsible contracting
                         officer.
                         The contractor returns IRS-issued laptops, ending the contractor’s participation and
  December 15, 2010
                         assistance in the risk assessments.
                         The contracting officer signed contract modification number three changing the
  December 30, 2010
                         requirements of the contract to mirror the reduced scope of work.
  February 28, 2011      Final contractor report deliverable provided to the IRS.
                         Over the life of the contract, the contractor received approximately $1.2 million, with
  June 28, 2011
                         the remaining $1.3 million in contract funds deobligated.
Source: The Treasury Inspector General for Tax Administration’s review of the contract file, various e-mails from
the IRS and the contractor, and discussions with the IRS and the contractor.

In our interviews with the IRS, we inquired as to why PSEP personnel did not timely contact the
contracting officer to execute a contract modification. Individuals we interviewed were in
positions in which they had a responsibility to inform the contracting officer that significant
deviations were being made in the scope of the work being performed by the contractor. For
example:
        The PSEP Risk Assessment Project Manager indicated that the IRS should have
         considered issuing a contract modification to document the contractor’s reduced work
         scope and deliverables when the changes were implemented in July 2010. However, the
         work to conduct the risk assessments before the December 31, 2010, deadline progressed
         at a fast pace and the modification “fell through the cracks.”
        The COTR indicated that there was a conscious decision to delay issuing the contract
         modification to document the new work scope changes because the IRS was not sure of
         what tasks it wanted the contractor to perform and the contractor’s decreased tasks
         reduced the contract’s cost.

11
  The amount of the original contract was $3.3 million.
12
  Under FAR provisions, contracting officers must be appointed in writing on Standard Form 1402, Certificate of
Appointment. This Certificate of Appointment is commonly referred to as a “warrant.”
                                                                                                          Page 12
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



The absence of a timely executed modification left the COTR and the contractor without
guidance on how to properly direct the performance of this contract. We believe that the IRS
inefficiently spent approximately $1.2 million as a result of IRS management’s actions. The
contractor was unable to provide key aspects of the contract’s requirements, including assurance
that all significant observations were identified and reported in the subject risk assessments and a
validation of the acceptability of the IRS’s security posture.

The COTR did not ensure invoice documentation was obtained in support of
payments made to the contractor
Our review of all eight invoices totaling approximately $1.2 million submitted for payment under
the contract identified that the COTR did not obtain and/or maintain sufficient documentation to
support more than $1 million of the total amount approved for payment. Figure 4 summarizes
our review of the supporting invoice documentation maintained by the IRS.
                             Figure 4: IRS Contractor Invoice Review
                                                                      Amount         Percentage
                                        Amount        Amount            Not             Not
                   Invoice item         Claimed      Supported       Supported       Supported

           Labor                         $935,463             $0        $935,463        100%
           Travel Expenses               $301,175      $190,380         $110,795         37%
           Total                      $1,236,638       $190,380        $1,046,258        85%
          Source: The Treasury Inspector General for Tax Administration’s review of IRS
          supporting documentation maintained for eight invoices submitted for payment under the
          contract.

The COTR duties include reviewing contractor vouchers and invoices to ensure they accurately
reflect the services delivered in conformance with the requirements of the contract. However,
our review found that the COTR relied on program office employees to determine whether the
contractor’s billed labor hours for each of the 304 site visits were reasonable based on the
requirements of the contract and did not obtain any supporting documentation from the
contractor, e.g., approved timesheets, to ensure the accuracy of the labor hours claimed.
In addition, we identified additional deficiencies relating to the administration of this contract,
including:
      The COTR did not review and maintain resumes for five of the 17 contractor employees
       to verify that the skills and qualifications of the employees were in line with the labor rate
       category specified in the contract. IRS policy requires that when the contract contains
       specific qualifications or experience levels for individual contract employees, the labor
       check should also include a verification of those qualifications.


                                                                                                   Page 13
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



        Documentation supporting contractor-billed travel expenses were not always obtained or
         maintained in the contract file. The contractor billed travel expenses for 215 separate
         trips. The IRS did not obtain or maintain any supporting documentation for 67 trips
         totaling $108,319 in contractor travel expenses. The IRS also did not verify the amount
         claimed on 19 of these trips, resulting in a net overpayment of $2,475. The errors we
         identified included instances where expenses were not supported with documentation,
         where expenses were in excess of General Services Administration per diem rates
         (e.g., hotels with rates that exceeded General Services Administration per diem rates),
         and where support was provided but the charges were not included on the invoice by the
         contractor.
        The COTR did not request or receive any monthly written status or progress reports from
         the contractor, as required by the original contract and the contract’s quality assurance
         plan.13
The COTR indicated that it was difficult to monitor the contractor’s performance because the
contractor employees could not be observed as they were in a different geographic location, and
because the PSEP Physical Security Specialist assigned to each facility decided how much and
the kind of assistance they needed at each site. Although the COTR stated that all travel
expenses were reviewed prior to recommending payment approval for the invoiced expenses,
none of the invoices contained evidence of review, such as the date of the review or the COTR’s
signature or initials. Our review found that this occurred because the responsible COTR failed to
complete specific responsibilities as detailed in the COTR Letter of Appointment.

Recommendations
The Deputy Commissioner for Operations Support should:
Recommendation 1: Reemphasize to IRS management officials, program office employees,
and the COTRs that contracting officers must be promptly notified of any changes to contract
requirements so required modifications can be timely executed.
         Management’s Response: IRS management agreed with our recommendation and
         will issue a memorandum to IRS management officials and the COTRs reemphasizing
         that contracting officers must be promptly notified of any changes to contract
         requirements so required modifications can be timely executed.




13
  Quality assurance is the action taken by the Government to assure that the contractor has delivered supplies or
rendered services that conform to contract requirements. Quality assurance is conducted after supplies are received
or services rendered and before acceptance is certified in the IRS’s Web Requisition Tracking System.
                                                                                                           Page 14
                An Independent Risk Assessment of Facility Physical Security
                Was Not Performed in Compliance With Contract Requirements



Recommendation 2: Ensure that the COTRs are administering contracts in accordance with
relevant FAR provisions, Department of the Treasury regulations, and IRS policies and
procedures, and perform their specific responsibilities as detailed in the COTR Letter of
Appointment. This includes ensuring that the COTRs advise contracting officers when changes
in the work or services occur, review contractor vouchers and invoices to ensure they are
accurate, determine whether services are delivered in conformance with the requirements of the
contract, and follow the contract’s quality assurance plan.
       Management’s Response: IRS management agreed with our recommendation and
       will issue a memorandum to PSEP COTRs outlining their roles and responsibilities. In
       addition, this memorandum will contain specific guidance on advising the contracting
       officer when changes in the work occur, reviewing contractor vouchers and invoices to
       ensure they are accurate and supported with appropriate documentation, determining
       whether services are delivered in conformance with the requirements of the contract, and
       following the contract’s quality assurance plan.




                                                                                        Page 15
                      An Independent Risk Assessment of Facility Physical Security
                      Was Not Performed in Compliance With Contract Requirements



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS administered the Physical
Security Risk Assessment contract1 in compliance with applicable Federal, Department of the
Treasury, and IRS acquisition regulations and guidance to ensure the IRS received the contract
deliverables in accordance with the terms and conditions of the contract. To accomplish our
objective, we:
I.         Reviewed the FAR2 provisions, Department of the Treasury regulations, and IRS
           acquisition guidance to identify contract administration requirements.
           A. Reviewed the guidance to identify all requirements, including roles and
              responsibilities of procurement and program office staff related to the administration
              of contracts.
           B. Interviewed key IRS personnel, including the contracting officer, contract specialist,
              the COTR, and PSEP program manager, and reviewed the PSEP Risk Assessment
              contract file to determine the technical requirements and contract administrative
              duties performed during the administration of the contract.
II.        Determined whether key IRS personnel, including the contracting officer, contract
           specialist, the COTR, and PSEP program manager performed their contract
           administration duties in accordance with regulations and guidance. This included:
           A. Whether contract modifications were properly and timely issued by the contracting
              officer.
           B. Whether the COTR was formally delegated authority and trained before performing
              COTR responsibilities.
           C. Whether the COTR performed the specific duties related to the contract that were
              outlined and agreed to in the COTR’s Letter of Appointment.
           D. Whether the IRS obtained security clearances for the contractor’s employees within
              required time periods.
           E. Obtained and reviewed supporting documents related to the first contract
              modification to evaluate how the IRS calculated the $800,000 reduction in contract
              value from $3.3 million to $2.5 million.

1
    TIRNO-10-C-00041.
2
    48 C.F.R., Ch. 1, (2009).
                                                                                             Page 16
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



III.    Determined whether the IRS received the deliverables in accordance with the terms and
        conditions of the contract.
        A. Reviewed the Performance Work Statement from both the original contract and the
           modification issued on December 30, 2010, to obtain an understanding of the
           technical requirements of the contract.
        B. Interviewed key IRS officials to determine whether the contractor performed any
           duties different than those outlined in the Performance Work Statement from both the
           original contract and the modification issued on December 30, 2010.
        C. Interviewed key contractor personnel to determine whether the contractor was
           provided direction to deviate from the performance requirements detailed in the
           Performance Work Statements from both the original contract and the modification
           issued on December 30, 2010, and obtained supporting records and documentation to
           substantiate the information provided during the interviews, when available.
        D. Determined whether IRS program office personnel acted within the scope of their
           authority when providing direction to the contractor by determining whether program
           office personnel were aware that their actions were not in accordance with their
           authority and what actions, if any, were taken to address the unauthorized direction to
           the contractor.
        E. Obtained and reviewed all deliverables provided by the contractor to the IRS to
           determine whether they complied with the contract’s technical requirements as
           outlined in the Performance Work Statement in both the original contract and the
           contract modification issued on December 30, 2010.
        F. Determined whether the IRS considered any alternative actions to protect the
           Government’s interests (resources), such as requesting the contractor to complete or
           re-perform tasks at no additional cost, decreasing task values and related contract
           costs, withholding payment, or terminating the contract.
        G. Determined whether the IRS performed quality assurance3 to ensure that deliverables
           and services provided by the contractor conformed to contract requirements.
             1. Reviewed the contract’s quality assurance plan, the COTR Letter of Appointment,
                and IRS acquisition regulations and guidance to identify all requirements,
                including the roles and responsibilities of the contracting officer and the COTR,
                related to performing quality assurance per invoices and deliverables.


3
  Quality assurance is the action taken by the Government to assure that the contractor has delivered supplies or
rendered services that conform to contract requirements. Quality assurance is conducted after supplies are received
or services rendered and before acceptance is certified in the IRS’s Web Requisition Tracking System.
                                                                                                           Page 17
                An Independent Risk Assessment of Facility Physical Security
                Was Not Performed in Compliance With Contract Requirements



           2. Reviewed all invoices and deliverables related to the contract and verified
              whether items include evidence of IRS inspection, such as inspection dates, a
              description of the services rendered for inspection, the outcome of the inspection,
              and signature of the COTR.
           3. Reviewed all invoices and contract files and determined whether the IRS
              performed a labor-hour check, which is evidenced through documentation such as
              the date and time the check was performed, the name of the employee, the
              employee’s labor category, a description of the work being performed, and the
              employee’s qualifications.
           4. Reviewed all invoices and supporting documentation and determined whether
              labor rates and categories were consistent with the terms and conditions of the
              contract and whether travel costs billed were supported by documentation
              consistent with the General Services Administration rates and related to the
              performance of the contract.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: FAR provisions, Department of the
Treasury regulations, and IRS policies and procedures. We evaluated these controls by
interviewing IRS management and program office personnel, contracting officers, the COTR,
and contractor personnel, and reviewing applicable documentation.




                                                                                          Page 18
               An Independent Risk Assessment of Facility Physical Security
               Was Not Performed in Compliance With Contract Requirements



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Alicia Mrozowski, Director
Darryl Roth, Audit Manager
Michele Strong, Lead Auditor
Yasmin Ryan, Senior Auditor
Heather Hill, Senior Evaluator
Lauren Bourg, Auditor




                                                                                  Page 19
              An Independent Risk Assessment of Facility Physical Security
              Was Not Performed in Compliance With Contract Requirements



                                                                          Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Director, Physical Security and Emergency Preparedness OS:A:PSEP
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Physical Security and Emergency Preparedness OS:A:PSEP
       Director, Procurement OS:A:P




                                                                                Page 20
                   An Independent Risk Assessment of Facility Physical Security
                   Was Not Performed in Compliance With Contract Requirements



                                                                                                 Appendix IV

                                       Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Inefficient Use of Resources – Potential; $1,236,638 (see page 9).

Methodology Used to Measure the Reported Benefit:
In June 2010, the IRS awarded a contract to conduct risk assessments at all 669 IRS facilities1
nationwide. The contract required the contractor to analyze existing security measures and
practices in each facility; provide findings and recommendations on any deficiencies noted,
including cost estimates for corrective actions; and prepare a report outlining the overall IRS
security posture. IRS management and PSEP program office employees directed the contractor
to perform services that were lesser in scope than required by the original contract. This
direction included that the contractor assist PSEP employees with conducting the risk
assessments rather than lead the risk assessments, provide observations to PSEP personnel who
prepared the final risk assessment reports, and attend only those facility site visits where PSEP
personnel requested support. In addition, the contractor indicated that the PSEP program office
did not provide the contractor access to all of the information necessary to complete the report
outlining the overall IRS security posture. As a result of its actions, the IRS did not receive
contract deliverables in accordance with the contract’s requirements.
IRS management informed us that numerous discussions were held after the contract was
awarded regarding a change in the contractor’s role and a reduction in work scope. In addition,
the IRS indicated that, while the PSEP security specialists were capable of conducting the risk
assessments without contractor support, the IRS wanted the contractor’s involvement to add
additional perspective and credibility to its risk assessments. This explanation was in complete
contrast to the justification in the contract acquisition plan that indicated the IRS did not have the
in-house capacity to perform the risk assessments within the six-month period required for their


1
  While the IRS has more than 700 facilities, the IRS indicated that facilities were excluded from the review based
on whether the facility was under realignment or underwent major changes before March 11, 2010. The contract
further noted that the total number and actual site locations were subject to change due to planned closures and new
facility openings. Of the 669 sites initially identified in the contract, the IRS indicated that 631 risk assessments
were ultimately performed.
                                                                                                            Page 21
                An Independent Risk Assessment of Facility Physical Security
                Was Not Performed in Compliance With Contract Requirements



completion. The absence of a timely executed modification left the COTR and the contractor
without guidance on how to properly direct the performance of this contract. We believe that the
IRS inefficiently spent $1,236,638 because the contractor was unable to provide key aspects of
the contract’s deliverables, including assurance that all significant observations were identified
and reported in the subject risk assessment reports, and validation of the acceptability of the
IRS’s security posture. We used the total amount spent on this contract, $1,236,638, as the
measure of the inefficient use of resources.




                                                                                          Page 22
 An Independent Risk Assessment of Facility Physical Security
 Was Not Performed in Compliance With Contract Requirements



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 23
An Independent Risk Assessment of Facility Physical Security
Was Not Performed in Compliance With Contract Requirements




                                                       Page 24
An Independent Risk Assessment of Facility Physical Security
Was Not Performed in Compliance With Contract Requirements




                                                       Page 25
